<html>
<title> - MAKING IT A PRIORITY FOR THE FEDERAL GOVERNMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      MAKING IT A PRIORITY FOR THE
                           FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2020

                               __________

                           Serial No. 116-95

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-427 PDF            WASHINGTON : 2020                             
 
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Ro Khanna, California                Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                         Brandon Jacobs, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia                             Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody B. Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachsetts       W. Gregory Steube, Florida
Jamie Raskin, Maryland

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 4, 2020....................................     1

                               Witnesses

Carol C. Harris, Director, Information Technology and 
  Cybersecurity,Government Accountability Office
Oral Statement...................................................     5
Anil Cheriyan, Director, Technology Transformation 
  Services,General Services Administration
Oral Statement...................................................     6
Bill Zielinski, Assistant Commissioner, Office of Information
Oral Statement...................................................     7

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Rep. Meadows' written statement.

  * Questions for the Record: to GAO Carol Harris; submitted by 
  Subcommittee Chairman Connolly.

  * Questions for the Record: to GAO Carol Harris; submitted by 
  Rep. Meadows.


                      MAKING IT A PRIORITY FOR THE

                           FEDERAL GOVERNMENT

                              ----------                              


                        Wednesday, March 4, 2020

              U.S. House of Representatives
              Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2154, Rayburn Office Building, Hon. Gerry Connolly, 
presiding.
    Present: Representatives Connolly, Norton, Speier, 
Plaskett, Khanna, Meadows, Hice, Comer, and Steube.
    Mr. Connolly. Subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for five minutes for an opening 
Statement and then I will call on the distinguished Ranking 
Member.
    Two years ago, I attended a White House roundtable on 
modernizing government technology, where I met with White House 
officials, including Matt Lira and Jared Kushner, who at the 
time headed the Office of American Innovation. They discussed 
the administration's plans to modernize the Federal 
Government's legacy, information technology systems, and to 
leverage emerging technology.
    I found myself agreeing with many of the IT goals set 
forward by this administration. Moving to the cloud, using 
technology to improve customer experience, finding ways to 
incorporate machine learning and improve agency processes, and 
prioritizing cybersecurity to make our Nation more secure.
    However, agreement with the administration's technology 
modernization goals does not mean giving any administration 
carte blanche to pursue those goals. The Federal Government 
spends nearly $90 billion per year on information technology. 
And as we've learned through the biannual FITARA scorecard, 
many IT efforts go sideways because they lack proper leadership 
and oversight.
    Taxpayers deserve a government that leverages technology to 
serve it, and also one that invests dollars wisely and 
transparently. That has not always happened. In 2016, this 
subcommittee, along with the then Subcommittee on Information 
Technology held oversight hearings to examine whether 18F and 
the U.S. Digital Services were fulfilling their missions.
    18F was launched in 2014 to help agencies improve digital 
services. What began as a 15-person startup, soon morphed into 
an office of 185 people that were spending a million dollars 
more per month than it was recouping in revenue. This 
subcommittee is conducting oversight to ensure that other IT 
modernization efforts don't have the same problems or develop 
the same bad habits.
    Across several administrations, the General Services 
Administration has been tasked with operating programs designed 
to facilitate the modernization of existing technology. The 
Obama Administration launched the Presidential Innovation 
Fellows and 18F to help agencies ostensibly tackle technology 
challenges. More recently, the Trump Administration launched 
the Centers of Excellence Initiative to help Federal agencies 
move to the cloud, adopt artificial intelligence, and better 
use data analytics, among other efforts.
    What are the results of those efforts? Are they achieving 
the Stated purpose? Are they providing services that can better 
be delivered by the private sector? These are the questions we 
hope to address this afternoon and they are not unique to this 
administration.
    Hearsay is also responsible for ensuring agencies have 
access to the telecommunications and IT solutions that are 
needed to meet mission requirements through the new Enterprise 
Infrastructure Solutions or EIS contract vehicle. EIS is 
critical to the Federal Government's IT modernization efforts 
and will help facilitate major improvement, efficiencies, and 
cost savings. However, to take advantage of the lower prices in 
modern technology offered under EIS, agencies must move off of 
Networx, that's W-O-R-X, the current and outdated 
telecommunications contract.
    This transition is easier said than done. GAO reported that 
the previous transition to Networx was plagued with delays and 
ended up taking 33 months longer than anticipated. These delays 
eventually led to an increase of, of course, $66.4 million in 
cost to GSA and an estimated $329 million in lost savings 
because agencies continued to order services from a predecessor 
contract, even after improved services were available through 
Networx at generally lower prices.
    I'm concerned and I know the ranking member is seriously 
concerned that agencies are now repeating the same mistakes in 
the transition to EIS, which will result in a greater cost to 
taxpayers. GSA is also working to simplify certain government 
purchases by establishing a program for all agencies to procure 
commercial products through an online marketplace or ecommerce 
portal, a requirement in the Fiscal Year 2018 National Defense 
Authorization Act.
    The online marketplace could allow those with agency 
purchase cards to use an online portal more efficiently to buy 
office supplies and some information technology goods that are 
under the micro purchase threshold of $10,000. While making 
these types of transactions simpler is a shared goal, GSA must 
work with agencies and stakeholders to ensure that we are not 
introducing unneeded risk across the government.
    Would an online marketplace make it easier for agencies to 
purchase counterfeit goods, foreign manufacturer 
telecommunications equipment that has been deemed a threat to 
national security, such as 5G by railway or other IT goods with 
inadequate cybersecurity protections? This subcommittee needs 
assurance that GSA is appropriately considering the 
consequences of letting agencies purchase cheap, potentially 
counterfeit goods or products with supply chain risks. We must 
ensure that GSA has a plan to mitigate those risks in the 
development of a desirable plan, the online marketplace.
    GSA plays a key role in helping Federal agencies modernize 
their IT systems and leverage to deliver better services to our 
taxpayers. I'm hopeful that the programs we are examining today 
can achieve their promised savings and deliver a better 
government to Americans. And with that I call upon the Ranking 
Member, Mr. Meadows, for his opening Statement.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
being here. Mr. Chairman, this is an important hearing. This 
has been a priority for you and because of that, it has been a 
priority for me. And we have been able to work together in a 
real way to hopefully address the $92-plus billion that we 
spend annually on IT and make it more effective in attrition.
    Certainly, GSA's willingness to help us with the technology 
assistance and procurement process is vital in that effort. For 
example, the Enterprise Infrastructure Solutions or EIS 
contract represents a $50 billion contract to modernize the 
agency networking communication system. And the EIS contract 
needs to be successful for agencies to continue transitioning 
from the old and often unsecured Legacy IT systems to a more 
modern, secure, and cost-effective cloud solution.
    If this is your first time hearing it, I can't imagine that 
you've been around IT long because it is something that the 
chairman and I fully agree. What I'm, I guess, to go off script 
very quickly, what I'm frustrated with is we continue to spend 
billions and billions and billions and make just very small 
incremental changes in terms of what we're doing. I have found 
that I spent less money than most departments, let alone 
agencies and I had a much more robust IT system in the private 
sector, just because I was able to be a lot more efficient with 
it.
    You are talking to someone in the chairman's seat who is a 
real expert in this area. Whether it is dealing with 
cybersecurity, everybody puts aside their security box there 
and they say, OK, we are dealing with cybersecurity, until they 
have a moment where they are not dealing with cybersecurity. 
And so, for me, I think it is important that we actually do 
actionable steps and so, for each one of you, I want us to say, 
how can we take our--this is the way things have always been 
done hat off and really look at this differently. And if it 
requires legislation, and I have said this before, Ms. Harris 
knows this, if it requires legislation and a fix, we are 
willing to fix it.
    I mean, there is only so long that you can spend $100 
billion a year and not have the most remarkable IT system in 
the world. I mean, it would be one thing if it was truly 
groundbreaking. But I even find, even on the congressional 
side, and this has very little to do with it, I have a hard 
time sharing my calendar with my wife in a secure environment. 
We can't even find--I mean, something so simple that we should 
be able to do that, and yet we have all these obstacles that 
are not there.
    So, I am anxious to hear that from all of you. I will give 
you my entire written Statement for the record, Mr. Chairman.
    Mr. Connolly. Without objection.
    Mr. Meadows. Thank you. I would ask--I want to introduce 
the gentleman from Georgia. He is about to become the ranking 
member on the Government Op--Operations Subcommittee. The 
gentleman from Georgia, Mr. Hice. So, welcome. Congratulations. 
It is a promotion, just because you get to work with the fine 
gentleman from Virginia.
    Mr. Hice. Well, I recognize that part of the promotion and 
otherwise, I do look forward to working with the chairman and I 
appreciate the tremendous leadership of the ranking member and 
a good friend. And I appreciate the opportunity to serve.
    Mr. Meadows. And I will close with saying this. You have 
been a dear friend. You have been someone who I have been 
willing to not only listen to and take advice from, but I have 
been--when we disagree, we are able to do that in a manner that 
is not disagreeable. And it has been an honor to be your 
ranking member. It was more of an honor to be your chairman, 
but it is certainly an honor as we transition in some of these 
roles. And with that, I yield back.
    Mr. Connolly. I thank the distinguished ranking member. And 
I--let me first of all welcome Mr. Hice in his new role and I 
look forward to that collaboration. But let me also 
reciprocate. I--you and I have been friends and colleagues and 
we will continue to be, at least through the end of this 
Congress, and I think we have gotten a lot done. We have looked 
for opportunities for common ground. Not everybody does that. 
And we are, I suppose if you--people knew each other's 
political background, we would be certainly an odd pairing.
    Mr. Meadows. Yes.
    Mr. Connolly. And yet we have by listening to each other, 
by respecting each other we have found common ground. And 
certainly on this subject, we have, I think, moved the ball way 
down the playing field because of that. And I really thank you 
and I hope we will approach the remainder of this year in that 
same spirit with the new ranking member. But thank you, Mark. 
Thank you for your leadership.
    With that, I want to introduce our panel. We have three 
distinguished individuals who are going to testify before us 
today. Carol Harris, who is the Director of Information 
Technology and Cybersecurity at the Government Accountability 
Office, with--welcome back, Ms. Harris.
    Anil Cheriyan. Cheriyan? You get to be called properly your 
name.
    Mr. Meadows. And then I'll butcher it, but go ahead. It'll 
be right and at least----
    Mr. Connolly. So, Anil, how should I pronounce it?
    Mr. Cheriyan. Cheriyan is great.
    Mr. Connolly. Cheriyan. OK. Director of Technology 
Transformation Services at GSA. And Bill Zielinski, Assistant 
Commissioner, Office of Information Technology Category, also 
at GSA. Welcome all three.
    If you would rise and raise your right hands. We swear in 
our witnesses customarily here at the Oversight and Reform 
Committee. Do you swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you God?
    [Witnesses sworn.]
    Mr. Connolly. Thank you. You may be seated. Let the record 
show that all three of our witnesses answered in the 
affirmative.
    The microphones are sensitive, so I would ask you to pull 
it close and speak directly into it. And without objection, of 
course, your full written statements will be entered into the 
record. We would ask now that you summarize those statements 
and take five minutes or less in which to do so.
    Ms. Harris, you go first.

 STATEMENT OF CAROL HARRIS, DIRECTOR OF INFORMATION TECHNOLOGY 
                     AND CYBERSECURITY, GAO

    Ms. Harris. Chairman Connolly, Ranking Member Meadows, and 
members of the subcommittee, thank you for inviting us to 
testify today on GSA's Enterprise Infrastructure Solutions 
Program. As requested, I'll briefly summarize the findings from 
our draft report completed at your request on this important IT 
acquisition.
    GSA is responsible for contracts that provide 
telecommunication services for Federal agencies, but GSA's main 
telecom contract set to expire soon, EIS is intended to be 
GSA's successor program. Transitions involving previous 
contract experienced significant delays and the delays during 
the transition to the current contracts, known as Networx, 
resulted in an increase of $66.4 million in cost to GSA and an 
estimated $329 million in lost savings at agencies. 
Unfortunately, it appears GSA and its customer agencies will be 
headed for another transition delay with EIS, unless corrective 
actions are taken quickly.
    This afternoon I'd like to highlight two key points from 
our report. First, the current rate of transition to EIS by 
agencies is too slow. The 19 customer agencies in our review 
all reported plans to fully transition to EIS before May 2023, 
when GSA expects extensions to its current contracts to expire. 
However, 11 did not intend to do so by GSA's suggested 
September 2022 milestone. The majority of the 19 agencies also 
did not meet GSA's milestones for completing critical 
contracting actions in 2019.
    By waiting until close to the end of the current contracts 
to finish the transition, these agencies are at risk of 
experiencing service disruptions if any issues arise that 
result in transition delays, such as inadequate staff resources 
or the need to transition previously unidentified services. 
Moreover, given agencies' poor performance during the last two 
transitions and their lack of meeting GSA's critical EIS 
milestones thus far, agencies are again at high risk of 
experiencing delays during this transition. Further, they will 
miss out on potential cost savings by delaying their 
transitions to the new contracts, which generally have lower 
rates for service.
    Now to my second point. Agencies have not yet fully 
implemented the established planning practices that can help 
them successfully transition to EIS. We have previously 
identified five planning practices that can help agencies 
reduce the risk of experiencing adverse effects of moving from 
one broad telecom contract to another. Based on commonly 
accepted principals of project management, these practices 
encompass a rigorous management approach, appropriate to a 
complex contract transition.
    Among other things, these practices include developing an 
accurate inventory of services, conducting a strategic analysis 
of telecom requirements, and identifying resources needed for 
the transition. Of five agencies we analyzed in depth, all had 
taken steps to address these practices, but none had fully 
implemented them all. For example, all five had developed 
telecom asset and service inventories, but none were complete. 
Some agencies also planned to implement certain practices after 
they issued their EIS task orders. The timing of the current 
telecom transition has been known since the contracts were 
first approved a decade ago and limited time remains to 
complete the transition before the current contracts expire.
    Further, inadequate project planning was a key factor that 
contributed to the delays during the prior transition to 
networks. Agencies that do not fully adopt the comprehensive 
approach captured in these five practices will not make the 
most of the opportunity for change and the potential to save 
costs that such a major telecom transition provides. In light 
of these issues, we are making a total of 25 recommendations to 
those five agencies to fully implement these planning 
practices. And that concludes my statement and I look forward 
to addressing your questions.
    Mr. Connolly. And thank you very much.
    Mr. Cheriyan?

      STATEMENT OF ANIL CHERIYAN, DIRECTOR OF TECHNOLOGY 
                  TRANSFORMATION SERVICES, GSA

    Mr. Cheriyan. Chairman Connolly, Ranking Member Meadows, 
and distinguished members of the subcommittee, good afternoon 
and thank you for the opportunity to testify here. I welcome 
the subcommittee's interest in two important programs in my 
purview, Centers of Excellence and 18F. I am Anil Cheriyan, 
Deputy Commissioner of the Federal Acquisition Services and 
Director of the Technology Transformation Services within GSA.
    So, today I'd like to share with you insights into the 
program's missions, approaches, and impact. While the CoE 
approach is typically a top-down, agency-wide transformation, 
18F takes more of a project-specific approach centered on one 
key initiative.
    So, starting with the Centers of Excellence. The CoE 
approach was established in October 2017 as a top-down, agency-
wide transformation that leverages a mix of government and 
industry talent, while centralizing best practices into 
reusable centers. Since inception TTS has formed six centers. 
In our view, these six capability areas are the focus areas 
needed by an enterprise when driving IT modernization. To date 
the CoEs have engaged six agencies. I'm happy to report that we 
recently, as of yesterday, announced GAO as our seventh agency 
and we're currently in discussions with several other agencies 
on leveraging the CoEs.
    While having been in existence for a little over two years, 
the CoE program has already begun to show significant benefits 
to agencies and the public. For example, USDA has avoided 
significant costs by consolidating from 39 to 6 data centers. 
Migrating 35 Contact Centers to 1 USDA and improving the 
transparency into the loan application process for farmers.
    Typically, the CoE engages early with industry and 
transitions work back to the agency or its industry partner 
during the later stages of implementation. From a financial 
standpoint, the CoEs are fully cost recoverable and while more 
than doubling the size of the team, increasing the agency 
partners, and also adding a new AI Focus Center.
    So, moving onto 18F. 18F was formed in March 2014, with a 
mission to make government's digital services easier to use for 
the American people. Since inception, 18F has worked on more 
than 372 projects, with 109 governmental entities. However, in 
the early years 18F suffered from growing pains typical of a 
startup, which resulted in process control deficiencies. I'm 
pleased to report that corrective action steps have been taken 
to rectify those control deficiencies.
    For example, the 18F work force has been right-sized to 
meet program demand. At its peak, the staff levels were in 
excess of 225. We're currently just under 100 staff. All of 
this was done while continuing to drive impact for agencies and 
the American public. A recent example is the 
findtreatment.SAMHSA.gov site, where a new website was 
developed to make it easier for people in crisis to find 
substance abuse centers.
    Similar to the CoE, the goal of the transition--of the 18F 
is--is to transition responsibilities to agencies and industry 
partners versus having a long-term role for 18F. From a 
financial standpoint, 18F's gross margin has improved by well 
over 3.5 million in the last year. We were nearly cost 
recoverable in Fiscal Year 1919 and have plans for full cost 
recovery in Fiscal Year 1920.
    So, in conclusion, the CoE program has begun to build 
momentum and sustainability. 18F has made strides in improving 
performance, while delivering improved citizen experience. 
Again, thank you and I look forward to the opportunity to 
answer any questions.
    Mr. Connolly. Thank you.
    Mr. Zielinski?

STATEMENT OF BILL ZIELINSKI, ASSISTANT COMMISSIONER, OFFICE OF 
              INFORMATION TECHNOLOGY CATEGORY, GSA

    Mr. Zielinski. Chairman Connolly, Ranking Member Meadows, 
and distinguished members of the subcommittee, my name is Bill 
Zielinski and I'm the Assistant Commissioner of the Office of 
Information Technology Category in GSA's Federal Acquisition 
Service. I also serve as the Office of Management and Budget's 
designated government-wide IT Category Manager. I am pleased to 
be here today to discuss the important role that GSA plays in 
the government's IT priorities.
    My office helps agencies navigate the challenges and 
opportunities presented by IT modernization, implementing new 
security controls for the government supply chain and making IT 
purchasing more efficient. Our focus is on maximizing the 
government's mission effectiveness in a number of ways to 
include providing agencies a suite of IT and telecommunication 
solutions; supplying emerging technology and innovations 
government, while fostering small business participation; and 
reducing the number of duplicative contracts.
    In Fiscal Year 1919 my office facilitated $26 billion in 
government spend related to IT, with $1.59 billion in cost 
savings for taxpayers. While my team in the GSA IT Category 
brings significant capabilities, it is through the partnerships 
across GSA with agencies government and with private industry 
that we are able to deliver solutions for agencies at every 
step of the IT lifecycle. I work in close coordination with OMB 
to review Federal IT spend, determine where opportunities exist 
to collaborate on the acquisition of IT products and services, 
and implement IT Category strategies to improve outcomes and 
get more value from IT dollars.
    Across GSA, my colleagues in Policy, GSA IT, Assisted 
Acquisition, and Technology Transformation together comprise a 
high-performing team of IT experts. We are directing 
significant efforts to deliver on Cross Agency Priority Goal 
Number 1 in the President's Management Agenda to modernize IT, 
to increase productivity and security. And on GSA's Strategic 
Goal to improve the way agencies buy, build, and use 
technology.
    Technology is critical to how every agency serves the 
public and accomplishes its mission. It is at the core of 
running support operations, safeguarding critical information 
and providing data to drive decision-maker. The 2017 Report to 
the President lays out a plan to improve the security posture 
of Federal IT by naming key initiatives and goals related to IT 
modernization. As part of the Report, there are actions related 
to the work GSA does to assist agencies in their efforts to 
modernize and secure the government's IT systems.
    The Enterprise Infrastructure Solutions contract helps 
Federal agencies modernize through telecommunications, 
infrastructure, and IT services. EIS is the backbone of the 
Federal Government's IT modernization efforts and carries great 
promise to facilitate improvements, efficiencies, and savings.
    It is critical that agencies maintain focus on both 
modernizing and transitioning their mission--their mission-
critical services off of the Legacy Telecommunications 
contracts and onto EIS. Agencies are releasing solicitations 
and issuing task orders against EIS and GSA is monitoring their 
progress, providing extensive assistance in establishing 
deadlines and milestones in order to accelerate the transition.
    Additionally, Federal purchasing through online 
marketplaces is rapidly increasing. GSA is working to establish 
a government-wide program that will let agencies buy products 
online through commercial ecommerce provides. We're launching a 
proof of concept in 2020 and partnering with e-marketplace 
platforms to deliver a solution. We expect to complete these 
acquisition activities and launch this spring and will submit a 
report to Congress detailing our implementation guidance at the 
end of April.
    GSA is also piloting emerging technology programs within 
GSA and partnering with agencies using artificial intelligence, 
distributed ledger technology, machine learning, and robotic 
process automation to develop best practices and playbooks and 
we're also educating agencies about the immense promise of the 
next generation wireless capabilities and will soon release a 
5G strategy that outlines activities and goals for adoption 
across government.
    In conclusion, the challenge of supporting, managing, and 
securing the Legacy System significantly affects the ability of 
agencies to meet current and evolving mission requirements. I 
want to thank you for the opportunity to appear before you 
today and to discuss GSA's priorities in 2020. I look forward 
to answering any questions that you may have.
    Mr. Connolly. Thank you so much. All three of you are pros. 
You did it within five minutes. Thank you.
    The chair now calls on the distinguished gentlelady from 
the District of Columbia, Ms. Norton, for five minutes.
    Ms. Norton. Thank you very much, Mr. Chairman, and I 
certainly appreciate this hearing. Very intrigued by what we 
are doing here today.
    I have a question about what looks like a move to promote 
efficiency when government agencies deal in the marketplace for 
off-the-shelf items, where the national--the--our own National 
Defense Authorization Act in 2018 said that essentially the 
purchase of goods at $10,000 or under could be done through 
this off--for off-the-shelf items through an online 
marketplace. I suppose, Mr. Zielinski, I should ask you this 
question. One, will this save taxpayers money, and two, as part 
of that question, is there any evidence that lower prices would 
result by off-the-shelf items being purchased individually in 
this way?
    Mr. Zielinski. Thank you, ma'am, for the question. Under 
Section 846 of Fiscal Year 1918's National Defense 
Authorization Act GSA is tasked with standing up a commercial 
platform in order to allow agencies to utilize that marketplace 
in order to purchase these commercial, off-the-shelf products. 
As you--as you point out, what we're looking for within this 
platform is a number of different things. One of them is to be 
able to consolidate that buying power of the Federal agencies. 
We know today that agencies are already using commercial 
platforms, but what we are not doing is we are not actually 
consolidating that buying power through----
    Ms. Norton. How are you consolidating it now if each agency 
can go on and order these goods?
    Mr. Zielinski. Correct--correct, ma'am. And that's exactly 
what's happening today. It's happening in a disaggregated 
fashion today.
    Ms. Norton. Yes.
    Mr. Zielinski. But under the Section 846 legislation, we're 
going to have a central marketplace----
    Ms. Norton. I see.
    Mr. Zielinski [continuing]. That would allow for us to 
consolidate that buying--that buying power across government.
    Ms. Norton. And therefore, you think the taxpayers will 
earn the benefit of reduced prices?
    Mr. Zielinski. Through--through the consolidation of that 
buying power, correct, ma'am.
    Ms. Norton. Yes. I have to ask you about a concern about 
counterfeit goods with the sellers like Amazon are not--who get 
the information from the agency, is not supposed to use it. But 
I know a quote from GSA that the government has limited ability 
to proactively monitor and identify this behavior and, of 
course, the behavior I am talking about is counterfeit goods 
and knock-offs. What does that mean? So that you have limited 
ability, is there no way to monitor this to tell whether or not 
there is conformity with the law?
    Mr. Zielinski. Thank you, ma'am, for the question. In 
today's environment, as I mentioned, the agencies are currently 
going to the commercially available platforms in order to 
purchase these items and we as a government have limited access 
to the information about what's being bought and the sources of 
those. Under the Section 846 program, rather than those 
commercial platforms we are looking to a business-to-business 
solutions that will allow for us to place requirements into the 
program, so that we would have that level of insight. That we 
would have both the information----
    Ms. Norton. So, the requirements will go--will be--will go 
to whom? Who will be--who will these--who will have to abide by 
these requirements?
    Mr. Zielinski. So, under the program we have released a 
solicitation to industries seeking qualified providers of these 
platform solutions. And right now we're assessing proposals 
that have been submitted. So, any offeror is subject to those--
those requirements under the program to provide us the data and 
the information that we need in order to do that monitoring.
    In addition to that, we're also seeking solutions from the 
platform providers that would allow for us to readily identify 
and remove any products that we believe that we don't have the 
strength of knowledge or there's not a provenance known. And in 
that way, reduce the risk posed in--in terms of counterfeit 
goods or items being sold.
    Ms. Norton. Now when will you have that ability? Beginning 
when will you have that ability?
    Mr. Zielinski. For the--for the program, we're actually 
releasing the pilot, the first implementation will be this 
spring, and we will start small and we will build from there.
    Ms. Norton. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Connolly. Thank you so much.
    Chair now recognizes gentleman from Georgia, Mr. Hice?
    Mr. Hice. Thank you very much, Mr. Chairman.
    And thank each of you for being here today.
    Ms. Harris, I was interested in your opening comment you 
made a couple of statements, such as many of these agencies are 
not meeting milestones, as we are approaching the May 2023. And 
because of that, you suggested that their may be possible 
service disruptions, amongst some of these agencies and that 
you were expecting there to be some extension requests with all 
of this. So, just to kind of get started here with my 
questions, how likely is it that any of these agencies are 
going to make a timely transition?
    Ms. Harris. That's a great question. Based on past history 
with the last two transitions, the agencies did not do very 
well. In fact, many of them. For part of the--the reason why 
the 33-month-schedule delay was, you know, was a result for 
Networx. And so, unfortunately, based on the current trajectory 
that we're seeing, it looks like a high number of agencies will 
likely be in that same----
    Mr. Hice. Will any agencies meet the May----
    Ms. Harris. I think that some will meet them.
    Mr. Hice. OK.
    Ms. Harris. But the vast majority are currently behind.
    Mr. Hice. Mr. Zielinski, would you agree with that?
    Mr. Zielinski. Sir, we are concerned that agencies' need to 
take the steps necessary in order to transition by that date. 
The May 2023 final date is when those--when those contracts 
expire.
    Mr. Hice. Yes, I get that. We are all concerned about it. 
My question is, are any of them going to make it?
    Mr. Zielinski. Yes, we actually have a number or agencies 
who have actually already moved to task order awards and are 
already well into transition and will be executing before that 
date. We have a lot of confidence. We actually provide an 
ongoing update of exactly where agencies stand and we're 
tracking----
    Mr. Hice. So, what percentage are going to be on time?
    Mr. Zielinski. I--I would have to be to get back to you 
with a--with a specific number. I don't have that off the top 
of my head.
    Mr. Hice. OK. And again, I understand that's an estimate. 
Everybody's guessing at this point, but I would like to have 
some general idea of what we're looking at. If we have agencies 
not meeting milestones in the process here and possible service 
disruptions on the way, I mean, we kind of need to be aware of 
that before we get to that point. So, it would be helpful to 
have some of that information. Is there any degree of 
punishment of negative consequences for agencies who do not 
meet the deadline?
    Mr. Zielinski. Sir, as a--as a result of the last 
transition and some of the recommendations that was made by 
GAO, we've actually adopted a very aggressive approach to where 
beginning with March 31 of this year, we are actually going to 
begin to descope the current sets of contracts. What we--what I 
mean by that is that we begin to limit the use and availability 
of the current--the current contract, so that agencies cannot 
obtain new and additional services from the old contracts. And 
in order to meet those needs, they will have to move to the new 
contract, as--as one example. So, we're working with----
    Mr. Hice. Would you consider that punishment or negative 
consequence?
    Mr. Zielinski. It--it is in the--it is in the sense that 
it--it provides a disincentive to stay on the old contracts.
    Mr. Hice. OK. So, what are--and I will come back, Ms. 
Harris, to you. What are some of the characteristics between 
the agencies that are going to make a timely transition and 
those that are not? What is the bigger----
    Ms. Harris. Those that are going to make the timely 
transition will have adopted either the majority or all of 
the--the best practices that we have identified for a rigorous, 
structured management approach. And that's actually one thing 
that GSA--actually, there are a couple things that GSA could do 
to facilitate the--or accelerate the--the agencies into meeting 
the--the 2023 deadline.
    The first of which is encouraging agencies to fully 
implement those practices. Right now, GSA's guidance and 
template includes some of the aspects of these five practices 
that--that we have endorsed, developing inventories, 
establishing transition plans, but--but there are a whole host 
of other sub-items or sub-activities that agencies can pursue.
    The second of which is, GSA works directly with these 
agency transition managers and they could reinforce the 
transition----
    Mr. Hice. But can--I have got less than 30 seconds. Let me 
ask you one other question. And I want to--I want you to get 
that to me. But I guess overarching to me, what other national 
technologies or cybersecurity priorities or whatever, are 
dependent upon this transition taking place?
    Ms. Harris. Well, I mean, certainly cybersecurity is a--is 
a top priority and--and ensuring that agencies move toward the 
EIS contracts is a priority because they're currently on these 
Legacy contracts and they need to move to more modernized, 
secure systems and--and services. And I'm sure Mr. Zielinski 
can elaborate further on--on the details of the security issue, 
but that is a major incentive and reason why we need to move 
off of the old networks contract.
    Mr. Hice. Sounds like it. Thank you.
    Mr. Zielinski, did you want to, in fact, elaborate on that, 
as invited by Ms. Harris?
    Mr. Zielinski. Certainly. Thank you, sir. I--I absolutely 
agree with Mrs. Harris' assessment that there is--that there 
are a number of--of--of technology sets that we are actually 
seeing agencies move toward. So, for example, moving from old, 
standard TDM over to Ethernet. Moving from--from current, old, 
Legacy voice over into voice over IP. Moving to these more 
modern telecommunications kind of pieces will allow for 
better--for better security as well.
    Mr. Hice. Thank you.
    Mr. Connolly. Chair recognizes the gentlelady from 
California, Ms. Speier, for five minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for being here. Ms. Harris, your report 
really is fairly critical of what is going on. That so much of 
everything is delayed. Are there any agencies that we can look 
to as being superstars in kind of complying with the 
milestones?
    Ms. Harris. Well, unfortunately not right now. I mean, 
there are certain small agencies, like SPA, for example, who, 
you know, they--they were expecting to issue one EIS task order 
and--and they have completed that. But as far as the other more 
medium-sized and larger agencies, they are behind at this 
point. And is important to note that of the 19 that we 
reviewed, there are 11 that do not plan to meet--or--or plan to 
transition to EIS by September 2022, which is GSA's suggested 
milestone for completion. And so, if--if these 11 agencies are 
waiting, essentially, till the last minute to--to move onto 
EIS, that--that's going to be a problem because, again, if 
there are service disruptions or things that they aren't 
anticipating, it will most likely push out that May 2023 date 
to the right.
    Ms. Speier. So, you referenced then in 2007 the transfer to 
Networx caused something like $329 million in lost savings and 
increased of 66 million. So, it sounds like we didn't learn any 
lessons; is that----
    Ms. Harris. No, we learned a tremendous amount of lessons. 
And, in fact, I credit GSA for incorporating those lessons 
learned from the Networx transition into their guidance in 
disseminating those--those lessons to the agencies. And now the 
onus is on the agencies to--to get their house in order and to 
move quickly to ensure that they are moving onto EIS as quickly 
as possible.
    Ms. Speier. But based on what you have just told us, that 
is unlikely to happen.
    Ms. Harris. It--it is unlikely to happen, based on the----
    Ms. Speier. So, what lessons are we learning this time 
then? That there are not enough sticks out there to have these 
agencies comply with the milestones or is it that we are 
picking bad contractors?
    Ms. Harris. I--I don't believe it's picking bad 
contractors. I think it's ensuring that GSA is putting in place 
the proper incentives and penalties to--to get the agencies to 
move quickly.
    Ms. Speier. So, if you were running GSA, what kind of 
incentives and penalties would you put in place?
    Ms. Harris. Well, encouraging agencies to fully adopt GAO's 
Five Practices for a Rigorous and Comprehensive Management 
Approach is, I think, is very important because we have found, 
based on our work over the past two transitions that when 
agencies adopt these practices, that they will transition 
successfully and on time.
    Ms. Speier. OK.
    Ms. Harris. That's something that I--I believe GSA should 
be really reinforcing with the agencies.
    Ms. Speier. And when those agencies don't comply with those 
best practices, what do you think should happen?
    Ms. Harris. That's a good question. I mean, I--I don't 
think that there's a--a one, right, silver bullet, per se, 
but--but perhaps there are some penalties that agencies should 
be having to--to experience in order to address these lessons.
    Ms. Speier. I think what it underscores for me is that we 
have no level of accountability. No one's head rolls if they 
don't meet these deadlines and so, the fact that they don't 
meet it for whatever reasons, is acceptable and then the costs 
are borne by the taxpayers. So, I think we need to look at 
holding these agencies accountable in ways that gets their 
attention and it doesn't sound like we have done that yet.
    Ms. Harris. Well, I--I--I think you're--you're right about 
that. I also think holding hearings like this with the customer 
agencies could also be very effective in holding these--these 
agencies accountable and ensuring that they are--they are 
pursuing a timely transition.
    Ms. Speier. Well, do we have the time to do this with every 
agency? Probably not. All right. One last--well, I am running 
out of time, but the issue of this marketplace is very 
appealing on the one hand, because I think we pay a premium 
when it says U.S. Government on it, whether we are buying 
paperclips or other kinds of equipments.
    I am still not convinced that we have got the issue of 
fraud and misuse and counterfeits dealt with. And maybe you can 
answer that for the record because my time is now up.
    Mr. Connolly. Ms. Harris, you can answer that if you would 
like and if there is additional material for the record, we 
will welcome that as well.
    Ms. Harris. Sure. So, in terms of the counterfeiting 
compromised offerings that would be on this marketplace that 
that's going toward supply chain risk management. And GSA will 
need to take a long, hard look at how they insure that they're 
doing everything they can to properly vet the offerings that 
are on the platform. And at the same time, also, clearly 
communicating to the agencies that these agencies have a 
responsibility to ensure that what they are purchasing is also 
not subject to counterfeit or--or compromise because they have 
a legal obligation to--to do their own vetting as well.
    Mr. Connolly. Can I just sneak in a piggyback question to 
that, Ms. Speier? If the ranking member--you answered Ms. 
Speier by saying, well, if USA had, in fact, taken into account 
a number of recommendations. Now it is up to the individual 
agencies to get their acts together and implement. But what's 
the role of 18F? There are 185 people, who presumably are there 
to help facilitate this kind of thing. Are they not available 
to these agencies to help?
    Ms. Harris. I think that's a question for Mr. Cheriyan.
    Mr. Connolly. All right. I will hold off on that. But I 
mean, I was really struck by your point about they're on their 
own. I am thinking, well, but we have consulting services 
within GSA, presumably to help with this kind of 
implementation. I will hold off until my questioning, Mr. 
Cheriyan, but think about the answer.
    Chair now--thank you for your indulgence. Chair recognizes 
the distinguished ranking member for his questioning.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Harris, I am going to come back to where my colleague 
just left off because, you know, I am hearing words like 
progress and we are making attempts and we have a few areas. 
Obviously, then we haven't them see the light. The agencies 
have not seen the light. Would you agree with that?
    Ms. Harris. I would agree with that.
    Mr. Meadows. So, if they haven't seen the light, what she 
is talking about is, it is time they feel the heat. I mean, I 
am with her. I think at this point I am just frustrated. We 
continue to have these hearings and either they are 
implementing your, you know, you say you have a five-step 
criteria for them to implement. So, how many of the agencies 
have implemented all five steps?
    Ms. Harris. At this point, for this particular transition, 
none have fully implemented.
    Mr. Meadows. None. None. Is that correct?
    Ms. Harris. That is correct.
    Mr. Meadows. All right. So, at what point do we put the 
five-alarm bell? At what point do we come off, you know, and 
start pulling the bell and saying we have got a problem. I 
mean, so if--other than SBA, is there any agency that we can 
bring in here and say this agency has done a good job and this 
one has done a terrible job?
    Ms. Harris. Well, I'll--I'd have to get back to you on 
that, sir.
    Mr. Meadows. You would have to get back to me because 
nothing comes to your mind that there is no one that has done a 
good job and you are going to have to do some creative writing?
    Ms. Harris. Well, the vast majority of agencies are behind. 
They've missed the--the critical, suggested milestones that--
that, excuse me, that GSA has--has put out for 2019 and there 
are 11 agencies that do not expect to fully transition before 
2022. So, that's a major----
    Mr. Meadows. And what are the consequences to them not 
fully--I mean, are there any consequences, other than 
embarrassment?
    Ms. Harris. The consequences are missed savings.
    Mr. Meadows. Well, no. I understand that. That is a 
consequence to the American taxpayer. I doubt there is any 
person at an agency is taking money out of their wallet, other 
than their normal taxes and paying for any lost savings, isn't 
that correct?
    Ms. Harris. That is correct.
    Mr. Meadows. Is money disappearing from their personnel 
fund or any other--I mean, do they have any appropriations 
consequences for their inaction?
    Ms. Harris. Not that I'm aware of and part of the reason 
why this is also happening is because agencies lack a--a formal 
governance structure for this transition process. They've not 
defined key roles and responsibilities for the people that are 
responsible for the transition. And so, accountability at that 
point is then defused, and it's hard to pinpoint a single 
person, who when the transition slides to the right is----
    Mr. Meadows. Well, here is--and I would offer for my 
colleagues, this is one of those things where we really have to 
put the pressure and meet with the Appropriations Committee 
because I am tired of talking about it. And here is what I want 
from each one of you. Is I want you to give me the three worst 
offenders from missing the milestones and who is responsible, 
what is the agency? And I don't care what it is. I want to know 
that. And then maybe three that are making an attempt. That is 
sad to say that they are just making an attempt, but the three 
that are making an attempt.
    So, which agencies have actually entered into contracts to 
get this done? And so, we are in the process, but we have 
entered into a contract. Mr. Zielinski?
    Mr. Zielinski. So--so, I can point to the Small Business 
Administration, the Pension Benefit Guarantee Corporation, the 
Social Security Administration, the EEOC, the National 
Relation--National Labor Relations Board have all entered into 
contracts. And there are others who are in the technical 
review----
    Mr. Meadows. All right. So, you have hit one of those. And 
it is not to minimize all the others, but Social Security is 
actually a decent-sized agency. So, what you are saying is they 
have entered into a contract, they are taking it seriously, and 
yet they are going to miss the milestone, but they are at least 
taking it seriously; is that correct?
    Mr. Zielinski. Sir, there's a series of milestones and 
the--the milestone that I believe Ms. Harris is referring is 
toward the end of the contract life we had set a September 2022 
date by which the agency should have transitioned off of their 
old services to provide adequate runway before the May 2023----
    Mr. Meadows. Adequate runway? I have been here for eight 
years. They have had eight years of runway and they haven't 
transitioned off of it, so I am tired of the adequate runway. 
And so, here is what I need from you, Mr. Zielinski. You know, 
and I find it just incomprehensible that my good friend from 
Georgia asked you about progress and who did not. Is that the 
list that you just gave me? Because when he asked a question, 
you said, well, you are going to have to get back with us, in 
terms of who is in compliance and who is not.
    Mr. Zielinski. No, sir.
    Mr. Meadows. Did I misunderstand you?
    Mr. Zielinski. That was a--I believe that was a different 
question that----
    Mr. Meadows. So, what was the question that you didn't have 
the answer to there?
    Mr. Zielinski. I--I'd have to----
    Mr. Meadows. If it is different. I want you to answer his 
question.
    Mr. Zielinski. Yes, I--I--I would have to--I'm sorry. I'm 
missing--I'm not----
    Mr. Meadows. So, it may have been the same question?
    Mr. Zielinski. I don't believe it was. It was----
    Mr. Meadows. OK. She wrote it down. The lady with the green 
pendant there. Yes. Yes. She wrote it down.
    Mr. Zielinski. It was the percentage of agencies----
    Mr. Meadows. And you don't know what percentage of 
agencies?
    Mr. Zielinski. I--I would--I would have to go back and look 
at the exact number because there are hundreds of agencies. 
The--the study that was conducted by GAO----
    Mr. Meadows. But if you are keeping the score and you don't 
know, I mean, why should we hold them accountable? Guys, let me 
just say and some of you this is not your first--but the last 
thing I hate are for people to come here and be unprepared and 
not have it, especially when we're talking about this kind of 
stuff. Ms. Harris knows this. I am not asking you to have the 
answers, but what I am asking you is to have the facts. And 
that should be a fact, so you can get that back to us within 
the next 48 hours?
    Mr. Zielinski. Certainly. We update that constantly. We can 
do so.
    Mr. Meadows. So, you update--can you have one of your staff 
members go out and call and before this hearing is over we 
maybe get that? Would they be willing to do that? She is 
nodding her head. You can turn around. She is nodding her head 
yes. OK. Yes, I just--I am just at the point we just got to get 
serious about this. And what I want you to do is help the 
Chairman and I get serious about this. And we are going to at 
least make them feel the heat. OK?
    I yield back. I thank you for your generous----
    Mr. Connolly. Not at all. I thank you and I would 
underline--I mean, this is the Committee of Oversight and 
Reform. We wrote a Reform Bill, FITARA. We have been promoting 
in this subcommittee and its predecessor with the Information, 
Technology Subcommittee, you know, good government measures to 
try to retire Legacy systems, consolidate debtor centers, 
protect the site--the enterprise with cybersecurity measures, 
and the like. And it is frustrating to us beyond words that we 
are at the pace we're at and exposing ourselves sometimes, at 
least to financial risks, if not technology risks. So, I 
certainly underline what both Mr. Hice and Mr. Meadows have 
said.
    Chair now recognizes the gentleman from California, Mr. 
Khanna, for five minutes.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you for holding 
this hearing on the Centers of Excellence. I appreciate your 
doing that and I want to thank Ranking Member Meadows for co-
leading the Center for Excellence Bill, HR-5901.
    The Centers for Excellence is a program that has 
accomplished quite a lot to date, and I would love to hear, Mr. 
Cheriyan, what you would think it has accomplished and what you 
would like to see it accomplish moving forward?
    Mr. Cheriyan. Great. And I thank you for that question. As 
I had said in my opening statement, the Centers of Excellence 
started back in 2017. We have now got seven agencies actively 
using the Centers. The Centers are--there are six of them. I 
can go into each one of them.
    We have now driven a significant amount of change in one of 
the large agencies, USDA, where we're much further along. Where 
we've done a significant amount of work, in terms of Cloud 
migration, data center reductions, consolidation of call 
contact centers, improvement of the loan processing, and so on.
    The next major agency that we're further along with is HUD. 
At HUD we're in active discussions on the implementation 
phases, where we're looking at Cloud solutions for--there about 
1,000 forms that HUD uses. We're looking at streamlining that 
whole process, automating that whole process with them, and 
building several more customer-specific tools for HUD to use. 
So, there's a significant amount of work in HUD and so on. So, 
I can--I can go down each of the agencies.
    Mr. Khanna. Can you give an example of money that has been 
saved to the American taxpayers because of this program?
    Mr. Cheriyan. There are--there are a significant amount of 
cost avoidance. You know, each of the agencies has gone through 
what their estimates are. I can get back to you on the 
specifics of it. There are----
    Mr. Khanna. That would be great. I mean, when you have a 
few concrete examples I think that would be helpful. The--can 
you also explain the difference between 18F and Centers of 
Excellence and their role to support the technology 
modernization in government?
    Mr. Cheriyan. Sure. 18F is primarily what I call a user-
center, design-focused organization looking at the--the user 
processes and streamlining the user processes. So, it's very 
much of a taking a customer-centric view and streamlining those 
processes. So, they're very--18F programs are very specific. 
They're initiative driven. Building of a new website and 
streamlining those processes, using, you know, for example, the 
Idea Act to improve the whole citizen experience.
    The Centers of Excellence approach is much more of a top 
down, transformation approach leveraging the six competency 
areas that we've built. AI, data and analytics, Cloud 
migration, contact centers, and so on. So, we're leveraging 
skills and capabilities that are typically needed to drive a 
transformation. So, it's much larger in--in scope and there 
could be multiple initiatives within a CoE program, whereas 18F 
is program specific.
    Mr. Khanna. And what can Congress do to be most helpful in 
seeing the success for the Centers for Excellence?
    Mr. Cheriyan. Well, I really appreciate having the 
opportunity to talk to you here about this and, you know, this 
shines the light on the good work that's being done, frankly, 
by a lot of people, both in industry, as well as our teams. I 
know you're in the process of creating a bill and we're happy 
to provide you technical assistance there.
    Mr. Khanna. What are the things in a bill that you think 
would be most helpful to make sure this succeeds?
    Mr. Cheriyan. We--we can certainly work with you on that 
and--and work with your staff on--on what we believe are--are 
the key components.
    Mr. Khanna. Thank you.
    Thank you, Mr. Chairman.
    Mr. Connolly. Thank you, Mr. Khanna.
    The chair recognizes the gentleman from Kentucky, Mr. 
Comer, for five minutes.
    Mr. Comer. Thank you, Mr. Chairman, and appreciate the 
hearing on making IT a priority for the Federal Government.
    Mr. Zielinski, Administrator Murphy recently wrote an 
article in Fortune Magazine, where she said, and I quote, ``E-
commerce has revolutionized how people and organizations buy 
and sell things. It's rewired the American economy and shifted 
the purchasing process. However, the Federal Government has not 
kept pace with these trends. The last major round of 
acquisition reform was a generation ago.'' My question to you 
is, explain how introducing e-commerce into the purchasing 
process through this pilot program benefit the Federal 
Government and, ultimately, the taxpayers?
    Mr. Zielinski. Thank you, sir, for the question. Under 
Section 846 of the National Defense Authorization Act, we are 
required to explore the utilization of various e-commerce 
platforms and incorporation of Federal Government. In the pilot 
that we're moving forward with, one of the clear benefits right 
from the beginning is we're actually targeting a portion of 
the--the market that is not currently providing services to the 
Federal Government. So, for one, it's opening up a marketplace 
that has not previously been there.
    Number 2, again, as I mentioned earlier, we know that 
agencies are currently using various e-commerce platforms in 
order to conduct business and to buy common goods and products. 
By moving it to a business-to-business platform, it allows for 
us to have a lot more insight into exactly what is being 
purchased, from whom that information--from whom those goods 
and products are being purchased, as well as to provide us with 
an opportunity to add additional controls in and around what is 
being purchased and how it's being purchased.
    Mr. Comer. OK. In that same article Administrator Murphy 
noted that having a whole-of-government approach to procurement 
will provide agencies with critical insight into their 
spending, leverage the government's buying power, take 
advantage of constantly evolving pricing to include sales and 
bulk discounts, and ensure small business participation. Now 
can you quickly explain those benefits to the taxpayers?
    Mr. Zielinski. Absolutely. The--the--again, back to the 
buying power today as agencies are making these purchases, 
they're making them in a disaggregated way by working with a--a 
kind of a centralized approach and strategy toward e-commerce 
platforms and working with those providers, those portal 
providers themselves, we're able to aggregate or to bring 
together the buying power and consolidate that in order to 
improve competition and get better prices on behalf of the 
American taxpayer.
    Mr. Comer. And I agree with everything you are saying. It 
sounds great. But do you have confidence the Federal Government 
will be able to pull that off?
    Mr. Zielinski. I--I do, sir. I--I, you know, I believe 
that--that the approach that we're taking as driven by the 
legislation that provides for Number 1, a lengthened period of 
market research at the beginning and a very considered approach 
will allow for us to have a great chance of success with this.
    Mr. Comer. Have many agencies expressed an interest in 
participating in this program?
    Mr. Zielinski. They have. We actually have met with quite a 
number of agencies, that numbers well--well above a dozen, and 
we actually have received commitment from agencies to work with 
us to both drive those requirements and to participate in the 
program.
    Mr. Comer. OK. Well, thank you very much.
    Mr. Meadows. Was the gentleman yield----
    Mr. Comer. Could I yield the balance of my time to the 
gentleman from North Carolina?
    Mr. Meadows. Yes. So, are you going to have the two 
awardees by the end of this month?
    Mr. Zielinski. I--we are--we're currently working through 
those proposals and our plan is to be able to make that award 
here, hopefully, by the end of this month, but--but certainly 
here in this--in this spring window of time.
    Mr. Meadows. So, is the deadline legislatively the end of 
this month? So, you are going to miss the milestone?
    Mr. Zielinski. Well, currently we do--we do have several 
protests that we are working through that--that impact or 
effect when we will be able to issue that award.
    Mr. Meadows. And why are they protesting?
    Mr. Zielinski. We received a number of protests in this 
particular case. The three protests that--that remain are--are 
asking us to reassess their proposals that were submitted. I--I 
can't--I'm sorry, I can't----
    Mr. Meadows. No, I'm not asking you, but so I guess, so 
what is your internal timeframe for addressing that?
    Mr. Zielinski. So, the--the protest periods, the standard 
protest periods are--are what are driving those and--and they 
will allow for us to award by the end of the month.
    Mr. Meadows. Oh, so you do think you will be able to award 
by the end of the month?
    Mr. Zielinski. We are hopeful that we will be able to do 
so.
    Mr. Meadows. OK. So, worst-case scenario is by--probably 
not? Is that what she just said?
    Mr. Zielinski. Yes.
    Mr. Meadows. I can read lips from way over here. So, 
probably the end of April? I mean, you can turn around and ask 
her. I mean, what are we thinking in terms of timeframe?
    Mr. Zielinski. Sir, it's difficult to--to say exactly the 
window of time that it will take to work through the protests, 
but we do believe that it's in a--in a short window of time. If 
not by the end of the month, shortly thereafter.
    Mr. Meadows. All right. So, if you are running into a 
problem that is going to last over 30 days, will you get back 
with the chairman and let him know the progress?
    Mr. Zielinski. We will do so, sir.
    Mr. Meadows. All right. I yield back. Thank you.
    I thank the gentleman from Kentucky.
    Mr. Connolly. Thank the gentleman.
    Chair now recognizes the gentlelady from the U.S. Virgin 
Islands, Ms. Plaskett, for five minutes.
    Ms. Plaskett. Thank you, Mr. Chair.
    Thank you all for being here. AbilityOne is a procurement 
program aimed at increasing employment opportunities for 
individuals who are blind or have severe disabilities. Under 
current law, Federal Government purchase card holders are 
required to buy AbilityOne products, such as pens, three-hole 
punches, binders, such like that. Government officials are 
prohibited from using their purchase card to buy items that are 
essentially the same as AbilityOne products at a local 
business. You are all--you are aware of that.
    There are more than 1,000 items produced by people who are 
blind or have significant disabilities and if compliance with 
the AbilityOne program is neglected, thousands of hardworking 
Americans will risk losing those jobs. Mr. Zielinski, I see you 
nodding at this program. You are aware of it. Will the agency 
purchase card holder still be required to comply with 
AbilityOne restrictions when making a purchase card through the 
online marketplace?
    Mr. Zielinski. So, for the online marketplace, it does not 
change or relieve agencies from their obligations under the 
AbilityOne program. And as part of the requirements for the--
for the portal providers is to ensure that we have insight into 
what is being purchased and that they are still able--that they 
are specifically able to identify where and when a purchase 
card holder is looking at items that are--that fall under the 
AbilityOne program and ensure that they are made aware that 
those--that those are items that are available through 
AbilityOne. So, within the program itself, we have requirements 
to ensure that--that agencies are able to continue to apply--to 
comply with the requirements of the program.
    Ms. Plaskett. So, they still will be unable to use the 
purchase cards through that?
    Mr. Zielinski. So, we are looking to have AbilityOne 
providers to participate through the portal itself and be a 
part of the e-commerce platform.
    Ms. Plaskett. And how do you intend to make that available 
to them?
    Mr. Zielinski. The first part is--is in the requirements 
for the portal providers. We actually provided those 
requirements, so they are required to, as part of the 
proposals, tell us how they would do so. There is a second 
part, is that we will need to work very closely with AbilityOne 
to ensure that their providers are aware of the program, that 
they are fully participating as well.
    Ms. Plaskett. And--OK. Great. What other procurement laws 
and regulations are purchase card holders expected to heed when 
making a purchase through online marketplace and how will GSA 
enforce compliance with that?
    Mr. Zielinski. The--again, I--I will say that the online 
marketplace does not relieve or change the obligations of--of 
agencies from complying with all current applicable laws. So, 
those requirements are actually being built into the program 
itself.
    Ms. Plaskett. OK. Thank you. Can I ask something else about 
the commercial platform pilot program, that GSA currently has 
out for bid? How will its implementation provide government 
contracting officers the ability to focus on more critical 
mission focus activities?
    Mr. Zielinski. If--if I understand your question correctly, 
ma'am, what we're looking for is to help reduce the burden for 
contracting officers and allow for the purchase of more 
commonly purchased commercial goods and items and--and by 
allowing the commercial platform to do those it relieves 
contracting officers who would otherwise be encumbered by these 
tasks and activities to work on other activities.
    Ms. Plaskett. And those being those other critical mission-
based focus activities?
    Mr. Zielinski. Correct.
    Ms. Plaskett. And how will this program differ from GSA 
Advantage?
    Mr. Zielinski. So--so, there's a number of different ways 
in which this differs from GSA Advantage. And in this 
particular place, in this particular case, for the commercial 
platform we're looking at items that are under that micro-
purchase threshold. Again, these are items that are not 
currently, generally purchased in the marketplace. So, it's 
bringing in a different set of providers.
    Ms. Plaskett. OK. Thank you. And last question. So, the 
White House signed an Executive Order aimed at preventing 
counterfeit products from abroad from being sold to Americans 
who shop online, right? The e-commerce platform that GSA 
establishes do not have to comply with specific laws, like 
trade agreements. How are you going to ensure that the online 
marketplace complies with this White House Executive Order?
    Mr. Zielinski. Thank you. That's a very good question. 
There's--there's a couple of ways that I will--I will mention. 
First and foremost, it goes back to the information and the 
data that we will be able to collect through the commercial 
platform that is currently not available. So, as agencies are 
making these purchases online today, they don't currently--we 
don't currently have access to information that allows for us 
to test and to check.
    The second thing is, is that we are actually looking to 
utilize the commercial best practices, work with the Department 
of Homeland Security and the recommendations that they have 
made for e-commerce platforms, and actually incorporating 
automation to where when there has been identified providers of 
these--of these products that are counterfeit or barred or 
removed, that the platform will be able to utilize that 
information to prevent them from being available to customers.
    Ms. Plaskett. Mr. Chair, just a followup question.
    So, how will that interface between you and Homeland 
Security work and has that been integrated now or is that 
something for the future?
    Mr. Zielinski. So, there's--there are actually mechanisms 
that are controlled by GSA now when one of those companies has 
been--has been--a product or a company has been barred that 
that is recorded within a GSA system. So, there are mechanisms 
for us to be able to--to do today that--which with we would 
interface.
    Ms. Plaskett. Thank you for the indulgence. I don't know, 
Mr. Chair, you might want to ask Ms. Harris if she believes 
that that will comply with that, but thank you.
    Mr. Connolly. The gentlelady could go ahead and ask that.
    Ms. Plaskett. Thank you.
    Ms. Harris, do you believe that there will be--the way in 
which this is being rolled out now, do you believe that that 
interface will take place to ensure that the online shopping 
will not be done with counterfeit, since there's no specific 
requirement to comply, although I understand that they are 
trying to work together? How is the integration between the two 
agencies working so that that would happen?
    Ms. Harris. That's a great question. We haven't done any 
work to examine it, but perhaps that's something that we should 
moving forward. But based on my understanding of this approach 
from Mr. Zielinski, I mean, going small and growing in 
complexity is the way to go. Going with the pilot approach and 
then--and then deploying. I mean, that is certainly consistent 
with best practice.
    Mr. Connolly. Thank you so much, Ms. Plaskett.
    Mr. Cheriyan, have you had time to think about the answer 
to the question I put to you about--one way of looking at 18F, 
you described it one way, but I guess my private sector 
background would say it is a group of consultants who provide 
technical services to client agencies. And given what Ms. 
Harris said about, well, at this point they are kind of--it is 
up to them now individually agency-by-agency to come to 
compliance, why wouldn't you make 18F available to those 
agencies, both to facilitate and expedite implementation?
    Mr. Cheriyan. No, I mean, that's a--I have had time to 
think about it. There--there is a--it's clearly an opportunity 
that we can look at and figure out how to do it. We currently 
are, as I mentioned before, 18F is primarily a group of experts 
who deal with user center design, digital services, and that 
type of work.
    Our CoE work is all about digital transformation, AI, 
Cloud, et cetera. We don't have right now in either one of 
those groups' telecommunications or EIS expertise. I would like 
to build that expertise or have that expertise or create that 
capability in order to really provide this kind of assistance 
to agencies. It's clearly an opportunity.
    Mr. Connolly. So----
    Mr. Cheriyan. But we don't currently--it's not in our--not 
in our wheelhouse at this point.
    Mr. Connolly. Not in your wheelhouse. How many people work 
at CoE?
    Mr. Cheriyan. I can get you that number. It's less than 40-
ish or so.
    Mr. Connolly. Forty-ish.
    Mr. Cheriyan. Yes.
    Mr. Connolly. And is the number 185 still accurate for 18F?
    Mr. Cheriyan. 18F is slightly less than 100.
    Mr. Connolly. Slightly less than 100 now? OK. The GAO 
reported on cost recovery for 18F and I thought I heard two 
different things here. The GAO reported previously that 18F was 
required to have a plan for cost recovery. And yet has yet to 
recover costs or project when it would fully recover costs and 
meeting the deadline. I thought in your testimony you indicated 
pretty much they are doing that now. Is that correct?
    Mr. Cheriyan. Yes, as of Fiscal Year 1919 we were close to 
cost recovery. We missed recovery by about a small amount of 
money and that's fundamentally due to the lapse in 
appropriations in early Fiscal Year 1919, where we had to wait 
for some of our contracts to be signed. We----
    Mr. Connolly. Because of the shutdown?
    Mr. Cheriyan. Yes, at that time.
    Mr. Connolly. Oh.
    Mr. Cheriyan. And then as of--for Fiscal Year 1920, we have 
full plans to be cost recoverable.
    Mr. Connolly. OK. And you concur with that assessment, Ms. 
Harris?
    Ms. Harris. We do concur. Yes, we do. We are currently 
waiting for some outstanding documentation that we have 
requested.
    Mr. Connolly. OK. Well----
    Ms. Harris. However, we do--we have looked at the--the 
plans that they have in place and--and we feel very confident 
that we'll be closing that recommendation very soon.
    Mr. Connolly. Good. Strike a blow for liberty. That is one. 
The GSA Inspector General--your Inspector General reported that 
18F disregarded fundamental GSA IT security requirements and 
circumvented the CIO when acquiring IT products. Now FITARA 
actually requires by law that the CIO have visibility in all IT 
acquisitions. So, we've got a situation where according to the, 
in 2017, the IG said, well they actually violated our own 
protocols and procedures within GSA, but, of course, they are 
also in violation of the spirit, if not the letter of the law 
in FITARA. Could you comment?
    Mr. Cheriyan. Most certainly. As I joined in January 2019, 
and one of my early readings were the IG reports and the GAO 
reports and I certainly took them very seriously. Prior to 
joining here, I was the CIO of a bank and I understand fully 
the rationale behind driving that kind of compliance. So, as of 
Fiscal Year '19 and Fiscal Year '20, all purchases of software 
have been approved by GSA IT.
    And all of the prior purchases, we've been working through, 
through a risk-based approach to ensure that GSA IT has got 
full approval on all of that.
    Mr. Connolly. I would assume, Mr. Cheriyan, that coming 
from the private sector, you can appreciate the logic behind 
the bill, which was written by a number of us who came from the 
private sector. That we want to empower the CIO to be able to 
make decisions for, hopefully, all the good reasons and that 
circumventing that thwarts our intent and we think jeopardizes 
the enterprise.
    Mr. Cheriyan. I fully understand the intent of the law and 
it makes a lot of sense.
    Mr. Connolly. OK. In addition to 18F, the Technology 
Transformation Service, TTS, runs the Presidential Innovation 
Fellows Program and the Centers of Excellence. What is the 
difference among all of these programs? How do we kind of get a 
cheat sheet to understand the differentiation and the rationale 
for having them as separate programs?
    Mr. Cheriyan. Yes, let--let me try and give you a high-
level view. I'm happy to give you more detail later. The CoE 
program is fundamentally driving transformation, leveraging 
centers of competency, Centers of Excellence and we have six of 
those right now.
    The 18F program is really a user-center design approach 
focused on--very much on the user-center design approaches or 
improving the--the citizen experience. The Presidential 
Innovation Fellows, think of them as being mid-career 
technologists who have come here to work in government for two 
to four years and they are really sent into an agency to deal 
with--typically, working with the CTO of the agency, dealing 
with business or technology architectural issues.
    So, there are some agencies where we have Presidential 
Innovation Fellows providing guidance to a CTO, we have 18F 
doing a particular project on user-centered design, and we 
might have the CoE team driving a program across all of those.
    Mr. Connolly. So, when I went to the White House to talk 
about the innovation agenda with Chris Little and Mr. Kushner, 
there were some Fellows, people seconded from the private 
sector for a period of time to help design the architecture of 
the initiative. Would those have been Presidential Innovation 
Fellows, or might they have been?
    Mr. Cheriyan. They might have been. I--I wasn't there, but 
I'm assuming that that was the case. I have--I can get back to 
you on specifically who they were, but----
    Mr. Connolly. Right. The Fellows aren't limited to GSA?
    Mr. Cheriyan. There are different Fellows. The Presidential 
Innovation Fellows sit within my organization. Now there are 
other Fellows, who I'm not--I'm not particularly aware of that 
meeting. Happy to get back to you on that.
    Mr. Connolly. Ms. Harris, you talked about the online 
marketplace and some of the problems with implementation and 
some of the risks. Presumably, I guess, some tripwire is not in 
place, so we are not going to catch always, I don't know, 
fraudulent products that may be purchased or cyber risk 
technologies that we might otherwise purchase because we are 
just not aware of it. Could you elaborate a little bit on that 
and how well are we doing to take protective measures to avoid 
those risks you outlined in your report?
    Ms. Harris. Yes. Well, at GSA they are in the very early 
stages of establishing a risk management program for their 
information and communications supply chain. Right now, we have 
ongoing work for this subcommittee and the full committee 
associated with the--the 23 civilian agencies and where they 
are relative to supply chain risk management processes. GSA, of 
seven major missed practices, has not implemented any at this 
time. There is some draft guidance that they have in place, but 
there's nothing that has been institutionalized at the 
organization right now.
    And so, that is in combination with this deployment of an 
online marketplace. And again, these--these management or risk 
management practices are internal to GSA. So, these are what 
GSA should be following as they procure their own goods and 
services to ensure that they aren't counterfeit or compromised 
in any way. But in order to vet offerings on this marketplace, 
they should have a robust process. And so, if the internal 
process is still in its--in its infancy, then there is, you 
know, then--then we have to be very cautious as we move forward 
with GSA deploying one--an online marketplace for the Federal 
Government.
    Mr. Connolly. So I, speaking for myself, Mr. Cheriyan, I 
think the online marketplace potentially is an exciting concept 
and has a lot of potential making us more efficient, 
streamlining the process, save some money for taxpayers. But in 
the public sector, it is different than the private sector. The 
private sector, something goes wrong with it, the CEO can say 
let's clean that up. We will move you over there and her over 
here and we will start anew. Repackage it, give it a new name, 
and let's do it again, and avoid the pitfalls of the past.
    Not in the public sector. In the public sector, if we don't 
get it right going into it, you will be hauled before a 
committee like this to account for messing up. And there will 
be a story in the press and so forth. And so it just seems to 
me that it is worthy of heeding the advice of and the analysis 
of GAO here to try to get this right at the ground level, so 
that we can realize the potential I think it has. And 
certainly, with your private sector background, you can see the 
potential. But we can also see the pitfalls if we don't get it 
right.
    So, I--we are going to be very interested in that. We want 
to be supportive of that, but we also want to make sure it has 
more than a fighting chance once it takes off to be successful.
    With that I have completed my questions for now, but I know 
that you have some additional questions, Mr. Meadows.
    Mr. Meadows. Just one little, followup.
    Mr. Zielinski, I want to say thank you to you and your 
staff for being responsive to the request. And so, I want to 
make sure that I, for the record, said thank you. The fact that 
you went out and made a phone call, whether I got the answers 
or not, at least it made me feel better. And so, I want to just 
say thank you. So, we will be looking for those answers if you 
don't have them already.
    The one cleanup area that I would like is, you know, you 
talked about this portal and the fact that you think it is 
going to save the taxpayers money. And you were very optimistic 
in questioning from the gentleman from Kentucky. I am 
concerned, just because I have seen so many great plans that we 
were going to save money and not just on IT, but across the 
agency. The minute the Federal Government gets involved we find 
that we have real problems.
    So, with this portal, the fact that you have protests, is 
it a protest, without speaking to the specifics of the protest, 
of access to the portal? Because here is--the only way we get 
efficiencies is to allow the free flow of people to come in and 
actually compete. If not, then it just becomes another 
bureaucratic portal that says, well, if you have figured out 
our maze and you are able to figure your way in, you actually 
get in and what happens is prices don't go up, they actually--I 
mean, go down, they actually go up.
    So, you have a high degree of confidence that we're 
actually going to create a portal that allows us to actually 
not only say that we are buying online, but that we're actually 
saving money?
    Mr. Zielinski. Thank you, sir, for the question. We 
actually, as part of the legislation, are required to provide 
regular reports on the status of the portal.
    Mr. Meadows. But on the plan, as I understand it?
    Mr. Zielinski. Absolutely, sir.
    Mr. Meadows. But not on the results? And Winston Churchill 
used to say, ``No matter how beautiful the strategy, we must 
occasionally look at the results.''
    Mr. Zielinski. So--so, sir. The--the next report that's 
being submitted, Report Number 3, actually will provide an 
outline of the measures of success and how we plan to measure 
that success and--and kind of the metrics that are in and 
around that. So, we actually do have it as part of that plan, 
the development of the success metrics and those are--are to be 
submitted with the next report.
    Mr. Meadows. So, with the number 10 being the most 
confident that the American taxpayer are going to see real 
value and actually reduce costs, how confident are you that if 
I go on and I am purchasing through this portal versus going 
through and purchasing online through another portal that does 
not require government approval, that I will be able to 
purchase the same thing cheaper on the government portal than I 
can if I go to some other online portal?
    Mr. Zielinski. Sir, as we--we talk about, you use the term 
cheaper. I--I would say that the metrics that we have----
    Mr. Meadows. Well, let's put it for a $500 hammer. We 
always hear about these 500 DoD hammers. I can go to ACE 
Hardware and buy it a whole lot cheaper. So I guess, in 
reality, that is what I am looking at. Cheaper means, in my 
mind, cheaper.
    Mr. Zielinski. Yes, so--so certainly one of the metrics is 
price and cost. But as we also discussed here today, as we are 
looking at supply chain risks and our ability to be able to 
recognize and understand what's being bought and from which 
sources, there's also metrics in and around those sorts of 
qualities as well, sir.
    Mr. Meadows. So, how do you put a value on that?
    Mr. Zielinski. So, it----
    Mr. Meadows. For the fact that I am comfortable with the 
fact that I bought something, and it complied. How do you put a 
numeric value on that?
    Mr. Zielinski. So--so, as part of setting out that metric 
plan, we will establish specific measures for----
    Mr. Meadows. So, you are going to put a dollar amount on 
that?
    Mr. Zielinski. For--for those things that are related to 
price, as opposed to those things----
    Mr. Meadows. No, but you are hitting exactly my, you know, 
it is the whole quality versus quantity issue. And what happens 
is, is if I am paying $500 for a hammer, but you say, by gosh 
it is a good hammer from a good place, and we don't have to 
worry about Chinese counterfeits. I mean, there--we have got to 
get to the point where you let common sense flow into this. And 
I need a dollar amount on that because I can buy all the $500 
hammers in the world and feel really good that I'm making a 
good purchase, when a $50 hammer might work just fine. And I 
guess what I am saying is how are we going to measure, where I 
am not coming back and you have ended up--we are ending up 
spending way too much of the American taxpayer dollars, but you 
say, but we got really good quality.
    Mr. Zielinski. And--and, sir, as part of our approach and 
starting small, as Ms. Harris mentioned, utilizing those best 
practices to start small and be iterative and make those 
measurements and make adjustments, those are exactly the--the 
questions that we're going to be answering as--as part of our 
process to ensure----
    Mr. Meadows. So, you give a letter grade on the things that 
the gentlewoman from the Virgin Islands was talking about and 
we get a dollar amount on the rest of it?
    Mr. Zielinski. At--at this time, sir, I'm unable to tell 
you exactly.
    Mr. Meadows. But you will have that by the end of March?
    Mr. Zielinski. But for our report--our Report Number 3 will 
contain----
    Mr. Meadows. And when is that due?
    Mr. Zielinski. Is it April--I believe it's right at the 
beginning of April, at the very end of March.
    Mr. Meadows. I thank the gentleman. I yield back.
    Mr. Connolly. I am reminded of the fact that this question 
of quality, quantity, and price--one of the brand names of 
men's clothing today that is considered a brand of excellence, 
got its start selling shoddy uniforms to the Union Army in the 
Civil War, that were notoriously shoddy, fell apart, and didn't 
keep the men warm or protected. Today it is a quality brand. 
So, there is hope.
    Mr. Meadows. There is always hope.
    Mr. Connolly. There is always hope.
    I want to thank our witnesses for coming today.
    Without objection, all members will have 5 legislative days 
within which to submit any additional written questions for the 
witnesses. Send it through the chair. And we will--and they 
will be forwarded to the witnesses for their response. I would 
ask our witnesses to try to respond as promptly as possible 
should there be additional questions for the record.
    Hearing no other concerns, this hearing is adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
